No. 20-1113
IN THE

Supreme Court of the United States
_________
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Petitioners,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent.
_________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
_________
PETITION FOR REHEARING
_________
MARK D. POLSTON
CHRISTOPHER P. KENNY
MICHAEL LABATTAGLIA
KING & SPALDING LLP
1700 Pennsylvania
Ave., N.W., Suite 200
Washington, D.C. 20006
(202) 626-5540
mpolston@kslaw.com

CATHERINE E. STETSON
Counsel of Record
KATHERINE B. WELLINGTON
MATTHEW J. HIGGINS
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
cate.stetson@hoganlovells.com

Counsel for Petitioners

RULE 29.6 DISCLOSURE STATEMENT
The Rule 29.6 disclosure statement in the petition
for writ of certiorari remains accurate.

(i)

PETITION FOR REHEARING
Under Supreme Court Rule 44.2, Petitioners seek
rehearing of the Court’s order denying certiorari. Petitioners respectfully request that the Court vacate its
order and hold the petition pending its decision in
American Hospital Association v. Becerra, No. 201114.
Petitions for rehearing of an order denying certiorari
may be granted where there are “intervening circumstances of a substantial or controlling effect.” Sup. Ct.
R. 44.2. That standard is met where, as here, the
Court later grants certiorari in a separate case that
raises the same or related issues. See Kent Recycling
Servs., LLC v. U.S. Army Corps of Eng’rs, 136 S. Ct.
2427 (2016) (mem.); Melson v. Allen, 561 U.S. 1001
(2010) (mem.); Simmons v. Sea-Land Servs., Inc., 462
U.S. 1114 (1983) (mem.).
The Court denied Petitioners’ petition for a writ of
certiorari on June 28, 2021. Four days later, it
granted certiorari in American Hospital Association v.
Becerra, No. 20-1114, which—like this case—concerns
how Chevron deference bears on the authority of the
Department of Health and Human Services (HHS) to
interpret the Medicare Act to slash hospital reimbursement. How the Court resolves Case No. 20-1114
directly affects the final rule Petitioners challenge
here and the D.C. Circuit’s opinion upholding it.
Petitioners in Case No. 20-1114 asked the Court to
grant certiorari to “enforce limits on Chevron deference” with respect to HHS’s rule eliminating $1.6 billion for hospitals serving low-income communities.
Petition for Writ of Certiorari at 15, Am. Hosp. Ass’n,
No. 20-1114 (Feb. 10, 2021). They argued that HHS
unlawfully “invoke[d] vague terms or ancillary
(1)

2
provisions to alter the fundamental”—and Congressionally-designed—“structure of [Medicare’s hospital
reimbursement] scheme.” Id. at 16. This case is
nearly identical, it also arises under 42 U.S.C.
§ 1395l(t), and the stakes are similarly very high for
hospitals. The main difference between the two is
that the reduction affects reimbursement to hospitals
for outpatient clinic services, rather than for outpatient drugs.
In each case, HHS justified its decision to cut hundreds of millions or billions in Medicare reimbursement with an obscure statutory sub-provision that
had been in effect for decades and had never before
been interpreted to confer such sweeping authority to
the agency. Compare Petition for Writ of Certiorari at
24, Am. Hosp. Ass’n, No. 20-1114 (“Congress buried
[HHS’s ‘adjustment’ authority] at the end of Subclause (II), and provided no indication (express or otherwise) that HHS could invoke it to render superfluous Subclause (I)”), and id. at 32 (“HHS’s ‘adjusted’
reimbursement rates eviscerate the federal subsidy
that has kept 340B Hospitals afloat for decades.”),
with Pet. 25 (“HHS completely bypassed that scheme
in this case, based solely on its dubious interpretation
of a sub-sub-sub provision of the Medicare statute
that does not even mention reimbursement.”), and id.
at 10 (“Section (2)(F) has been on the books for over
two decades, and HHS had never interpreted it to permit cuts to reimbursement rates.”). And in both cases
the District Court ruled that Congress’s statutory
scheme unambiguously denied HHS the authority it
sought to slash reimbursement. Petition for Writ of
Certiorari at 9-10, Am. Hosp. Ass’n, No. 20-1114; Pet.
10-12. In both cases—again—the D.C. Circuit reversed, invoking Chevron to countenance HHS’s

3
strained statutory interpretation. Petition for Writ of
Certiorari at 11-12, Am. Hosp. Ass’n, No. 20-1114; Pet.
12-13. Noting these parallels, Petitioners cited the
D.C. Circuit’s dissent in Case No. 20-1114 to demonstrate HHS’s willingness to unlawfully “wield Chevron deference to re-write the Medicare statute.” Pet.
26 (citing Am. Hosp. Ass’n v. Azar, 967 F.3d 818, 835
(D.C. Cir. 2020) (Pillard, J., dissenting in part)).
Moreover, each case centers on the same jurisdiction-stripping provision: 42 U.S.C. § 1395l(t)(12). In
this case, the Government’s lead argument against
certiorari was that Subsection (t)(12) precludes judicial review of Petitioners’ challenge. Br. in Opp. 1419. The Government’s lead argument in Case No. 201114 was identical. Brief in Opposition at 14-17, Am.
Hosp. Ass’n, No. 20-1114 (May 13, 2021). In Case No.
20-1114, the Court has directed the parties to brief
and argue whether Section 1395l(t)(12) precludes the
petitioners’ challenge to HHS’s Medicare adjustments
in that case. See Am. Hosp. Ass’n v. Becerra, __ S. Ct.
__, 2021 WL 2742784 (July 2, 2021).
The petitions in Case Nos. 20-1113 and 20-1114
were filed on the same day—each by the American
Hospital Association, among others. And, strikingly,
the two D.C. Circuit decisions below were authored by
the same judge, with a second judge also sitting on
both panels.
The D.C. Circuit should be given an opportunity to
revisit the decision below in light of this Court’s forthcoming opinion in American Hospital Association v.
Becerra, No. 20-1114. That decision will bear directly
on the validity of HHS’s final rule and will guide lower
courts on how to assess its lawfulness.

4
Petitioners respectfully request that the Court grant
their petition for rehearing, vacate its order denying
certiorari, and hold their petition for certiorari pending the Court’s decision in American Hospital Association v. Becerra, No. 20-1114. Then, if the Court reverses the D.C. Circuit in Case No. 20-1114, Petitioners request that it grant their petition for certiorari,
vacate the decision below, and remand (GVR).
In the alternative, Petitioners request that the
Court wait to rule on their petition for rehearing until
after it issues a decision in Case No. 20-1114—as it
has done in a number of previous cases. See Addison
v. New Hampshire, 565 U.S. 1174 (2012) (mem.)
(denying petition for rehearing only after deciding a
related issue in Perry v. New Hampshire, 565 U.S. 228
(2012)); Smith v. Florida, 567 U.S. 954 (2012) (mem.)
(denying petition for rehearing only after deciding a
related issue in Williams v. Illinois, 567 U.S. 50
(2012)).
Respectfully submitted,
MARK D. POLSTON
CHRISTOPHER P. KENNY
MICHAEL LABATTAGLIA
KING & SPALDING LLP
1700 Pennsylvania Ave.,
N.W., Suite 200
Washington, D.C. 20006
(202) 626-5540
mpolston@kslaw.com

CATHERINE E. STETSON
Counsel of Record
KATHERINE B. WELLINGTON
MATTHEW J. HIGGINS
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
cate.stetson@hoganlovells.com

Counsel for Petitioners
JULY 2021

5
CERTIFICATE OF COUNSEL
Under Rule 44.2, Counsel certifies that the Petition
for Rehearing is restricted to the grounds specified in
the rule with substantial grounds not previously presented. Counsel certifies that this Petition is presented in good faith and not for delay.

________________________
CATHERINE E. STETSON
Counsel for Petitioners
July 23, 2021

